Court of Appeals, State of Michigan
ORDER
Breada Ford White v O L Matthews MD

Christopher M. Murray
Presiding Judge

Docket No.

354308

Kirsten Frank Kelly

LC No.

13-013472-NH

Cynthia Diane Stephens
Judges

The delayed application for leave to appeal is DENIED for lack of merit in the grounds
presented.
The Court concludes that the appeal is frivolous and vexatious. MCR 7.216(C). On its
own motion, the Court ASSESSES sanctions. Plaintiff-appellant Brenda White is ordered to pay the Clerk
of this Court $500.00 within 28 days of the date of this order. The Clerk of this Court is directed not to
accept any further filings from plaintiff, or on behalf of plaintiff, in any non-criminal matter until plaintiff
has made the payment required by this order. MCR 7.216(A)(7).

]fi
K'i/ir-y

t

>r
S'

Presiding Judge

A true copy entered and certified by Jerome W. Zimmer Jr.. Chief Clerk, on

October 29, 2020

Date

ChicTCIerk

STATE OF MICHIGAN
IN THE THIRD JUDICIAL CIRCUIT

COURT (WAYNE COUNTY)

Brenda Ford White, in pro-per,
Plaintiff- Appellant,
Case No. 13-013472-NH

Hospital and Medical Center Inc a
smeeve1Cal!yCOrPOrati0n' indiVidually' ^ and

Defendants-Appellees.

on_ June 22T ?n?n

Detroit, Michigan

PRESENT: HON. TIMOTHY M. KENNY
CHIEF JUDGE, THIRD JUDICIAL CIRCUIT COURT
Plaintiff, Brenda White, having submitted
a Motion for Relief from Judgment to
this Court, seeks leave to file the
motion before the previous trial judge of record, Judge
Leslie Kim Smith. Plaintiffs
submission to the Chief Judge is in
compliance with Judge
Smith’s March 21 2019 order denying Plaintiffs Third Moti
otion for Relief from Judgment
and MCR 7.316(C)(3).
A history of the above-captioned case following the trial
court's dismissal on
January 14, 2014 is helpful in explaining this Courts denial of Plaintiffs leav
e to file a
Fourth Motion for Relief from Judgment in the same case:

1

On March 14, 2017, Plaintiff filed a Motion to Reinstate, which was denied by
Judge Smith and Plaintiff’s application for leave to appeal was denied by the Court of
Appeals on June 16, 2017.
On August 15, 2017, Plaintiff filed a Motion for Relief from Judgment which was
denied by Judge Smith. The Court of Appeals denied Plaintiffs application for leave to
appeal and Motion for Reconsideration. On March 5, 2018, Plaintiffs application for
leave to appeal was denied by the Michigan Supreme Court.
On March 26, 2018, Plaintiff refilled a renewed Motion for Relief from Judgment,
which was denied once again by Judge Smith. On September 12, 2018, the Michigan
Supreme Court entered an Order dismissing Plaintiffs application for leave to appeal
and granting Defendant's Motion to Dismiss,

Plaintiff was found to be a vexatious

litigator under MCR 7.316(C)(3).
On March 11, 2019, Plaintiff filed a Motion for Relief from Judgment based upon
the same allegations as the past three motions. Judge Smith denied the motion as it is
without legal merit.
Plaintiff has repeatedly filed Motions for Relief from Judgment in the trial and
appellate courts. All have been rejected. The present request, the fourth attempt in the
same case, is vexatious and will not be permitted.
Leave to file a Fourth Motion for Relief from Judgment is Denied.
/s/Timothy M. Kenny
HON. TIMOTHY M. KENNY
Chief Judge, Third Judicial Circuit Court

2

Order

Michigan Supreme Court
Lansing, Michigan

March 30, 2021

Bridget M. McCormack,
Chief

162310

Brian K. Zahia
David F. Viviano
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh
Elizabeth M. Welch,

BRENDA FORD WHITE,
Plaintiff-Appellant,

Justices

and
PATRICK FORD,
Plaintiff,
v
O.L. MATTHEWS, M.D., WOOK KIM,
M.D., JORAM MOGAKA, M.D, HARPER
UNIVERSITY HOSPITAL, and
ST. JOHN’S HOSPITAL AND MEDICAL
CENTER, INC,
Defendants-Appellees.

SC: .162310
...........
COA: 354308
Wayne CC: 13-013472-NH

On order of the Court, the application for leave to appeal the October 29,2020 order
of the Court of Appeals is considered, and it is DENIED, because we are not persuaded
that the question presented should be reviewed by this Court.

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.
March 30,2021
b0322

Cleric

BRENDA FORD WHITE-PETITIONER^ PRO-SE)

VS
O.L. MATTHEWS, M.D. et al, - RESPONDENT (S)

EXHIBITS
Exhibit A- a copy of a three page response sent by email to Brenda White from the CDC
regarding Brenda and Joseph White complaint. CDC-775844-B3X6V4, dated October 26

,2020

Exhibit B- a copy of an email with corrections dated October 27, 2020 from Brenda White sent
to the CDC requesting the CDC to make corrections in the call description statement regarding
the complaint that Brenda and Joseph White filed. Complaint # CDC-1045481-G8R0F8

Exhibit C- a copy of an email response from the CDC regarding Brenda White email inquiry «...
sent
to the CDC on October 27, 2020 requesting the CDC to make corrections in the call description
statement. Complaint # CDC-1045481-G8ROF8

Exhibit D- a copy of an email sent to Brenda and Joseph White from Michelle M. Brya, Division
Chief from Licensing and Regulation Division, dated October 29, 2020, regarding a citizen
inquiry Brenda and Joseph White sent to Attorney General Dana Nessel. Inquiry # 20200294519-A

Exhibit E-a copy of an email letter from Richard L. Cunningham, Michigan Assistant Attorney
General, sent to Brenda White regarding several civil legal claims and administrative
proceedings, dated March 9, 2021.

From: CDCInfo cdcinh^cdcinquiry.onmicrosoft.com
Subject: CDC INFO; Topic [Complaint] [CDC-775844-B3X6V4]
CRM:01353938
Date: Oct 26, 2020 at 2:31:25 PM
To: brendawhite232@comcast.net
Thank you for contacting CDC-INFO.
We hope you find the following information about how to report a complaint helpful.
To file a complaint about improper care or unsate conditions in a hospital, home health agency,
hospice, or nursing home, contact your local and state health department. For the local health
department, you will want to call the local health department that is located in the city or county
where the facility is located.
State health departments: www.cdc.gov/publichealthgatewav/hefllthdirectories/
healthdepartments html
Local health departments: www.naccho.org/membership/lhd-directory
To file a complaint about a provider (e.g., unprofessional conduct, incompetent practice, or
licensing questions), contact your state medical or dental board.
State Medical Boards: www.fsmb.org/contact-a-state-medical-hoard/
***Feedback about your experience with CDC-INFO is important to us and will help us continue
to improve. Please rate your interaction by completing this short survey:
https.://www.survevrnonkev.com/r/FKXRCG5?CaseId-CDC-775844-B3X6V4
Responses are kept completely confidential.

Links to nonfederal organizations are provided as a service. Links are not an endorsement of
these organizations or their programs by CDC or the federal government. CDC is not responsible
for the content of organization websites found at these links.
Thank you for contacting CDC-INFO. For more information, please call 1-800-CDC-1NFQ
(81)0-232-4636), visit www.cdc.gov and click on “Contact CDC-INFO,” or go to www.cdc.gov/
info.This e-mail was sent from an unmonitored mailbox, and CDC-INFO will not respond to
replies sent to this mailbox. If you have questions or comments, please send them via our online
form at www.cdc gov/info.
CDC-INFO is a service of the Centers for Disease Control and Prevention (CDC) and the Agency
for Toxic Substances and Disease Registry (ATSDR). This service is provided by the Verizon and
MAXIMUS contract with CDC and ATSDR.

CG
--------------------Cajl £)escrjptjon

Name: BRENDA WHITE & JOSEPH WHITE
E-mail: BRENDAWH1 TF.9 3?ig)COMC A STNPT
(SSWlf^U3'02'1 (H0ME)//BRENDACELL: (586)215-5123 //JOSEPH CELL:
Date, Time ET;
General Public: ( Caller and his wife were calling about Bettie Ruth Ford Died in Oct 16,
2008 due to Painted Cortisol Shots. This is in regards to Brenda Ford White
& Patrick Ford (Plaintiff) VS O.L. Mathews MD, Wook Kim MD, Joram Mogaka
MD, Hopper University Hospital and St. John’s Hospital & Medical Center
INC.
The case just left US Supreme Court on June 1,2020 (for the 3rd time) C ase
# 19-8116. Wayne County Trial Court # 13-013472-NH.

It's now rejected illegally
when it's a murder case. Now Caller needs to take it to Michigan court of
appeals by 7/13. This has been a case since 2013.
They need it documented that they contacted the CDC about this.
The two attorney’s names who covered it up are Linda M. Garbarino from
Tanoury, Nauts, Mckinney & Garbarino, PLLC for defendant Hopper University
Hospital and Robert G. Kamenec Plunkettconey for defendant O.L. Matthews MD,
Wook Kim MD, Joram Mogaka MD, and St. John's Hospital & Medical Center INC.
Linda M. Garbarino Bar # P38359
Robert G. Kamenec Plunkettconey Bar # P35283.
When it was in the Michigan Supreme Court the Case #160198
The last Michigan Court of Appeals # 348497

The attorney who covered these cases up was named Kenneth T. Watkins and
the probate attorney was Victor Cohen, both were from the

same company.
They said they have medical records, etc. showing the tainted steroid injections (under
two different names Bettie White and Betty White. They were also billing her
fraudulently.) St. John's should have reported this and they did

not.
They need CDC assistance in this case. They want to know if this has

case

has ever been reported on before to the CDC? If it hasn't been

reported they
want it to be reported today 7/06/2020. If it hasn't been, they want to know
why?
They’re handling this case alone and need backup as soon as possible, need
a response by 7/20. According to caller their life is at risk, others are
trying to silence them and tried to get them into a car wreck? Apparently
police officers and witnesses are being killed.)

Comcast
Re: CDC INFO; -Topic [Complaint] [CDC-1045481-G8R0F8]
CRM:01326379
Oct 27, 2020 at 5:12:45 PM
CDCInfo
Brenda White
Ice joseph white

Hospital and St. John's Hospital And Medical
was also reported to the CDC.

'

C‘ °ther case corruPt*on

to the
Cortisone death end other case oo^tL^S^heCDC On'j 71 ,
Complaint no. [CDC-775844-B3X6V4] CRM:01353938

V ’ °2°'

My Correct cell # is jffiag) 215-S993 j
't is not .(53£L2UL5123 please correct,
My Mother, Bettie Ruth Ford died
due to tainted steroid injections
please change
the word painted to tainted. ,
The Name of the Hospital is Harper University Hospital it is
not called Hopper
mversity Hospital. Please change the word Hopper to Harper.

,as*na™ —«whi-

Thank You,
Brenda White

30585 Sandhurst Dr. Apt. 207
Roseville, Michigan 48066
H: (586) 773-0251
C: (586) 215-5923
Email:brendawhite232@comcast.net
Sent from my iPhone
On Oct 27, 2020, at 2:03 PM,
COCinfo <£ddDfoig^c±tfljili-v.onmirrn^ft ^
>
wrote:

’V

From: CDCInfo cdcinfo(a>cdcinquiry.onmicrosoft.com
Subject: CDC INFO; Topic [Complaint] [CDC-1045481
-G8R0F8}
CRM:01326379
Date: Oct 27, 2020 at 2:03.‘46 PM

To: brendawhite232@comcast.net
Thank you for your inquiry to CDC-INFO.

y“:r,“re? ™",s ,6e compi"rew
CDC-INFO is a service of the Centers for Disease Control and Preventi

on (CDC) and the

Verizon and MAXIMUS contract with CDC and ATSDR.
KT
Call Description
Name: Brenda White
E-mail: brendawhite232@comcast.net
Phone: 586-215-5923 or 586-773-0251
Date, TimeET: 10/26/2020, 4:20 {<EST
General Public:
Needing some corrections done a complaint that was filed
against the CDC
Please contact Inquirer as soon as possible

AG."LR'Citizen-Letters • r :
k
Citizen Inquiry # 2020-0294519
-A
Oct 29, 2020 at 11:54:37 AM
- • Brendawhite232@comcast.net, j
Josephwhite585@comcast.net

Brenda and Joseph White

regret the delay in responding to your iS rll n
gW C0UrtS md trib™als. I
emails each week, making some delays inevitable epmtmmt receives h™dreds of letters and

k“'

for SBB of
rs of the
These
omey General to
specific cases.

prov,de ^

Of Michigan’s Lawyer Referral Service afits toll frJ

Sihlgan’you
hdvice resarding
ie§ai remedies
may contact
the State Bar

8 30m»h
» »-»*«
p.„.
“ I “ Xr’
X*1123■"* «*« »
you with „ auomoy „ho2l
",
f«. * «fen

"

S'' V“ “

«»« *: taX^SZS”1'”1 "”S"'“0n

the exclusive jurisdiction of IhStS^Xkfwe'c' JUd8"' •“'* “"P

Michigan Judi0^ Tenure Commission
3034 W. Grand Blvd., Suite 8-450
Detroit, MT 48202

Michelle M. Biya
Division Chief
Licensing and Regulation Division

fa“ within

nat:

oepartmS^o"
general
}

Detroit, Michigan 48202
DANA NESSEL
attorney general

March 9, 2021
Brenda White
Brendawhite232@oomcast.net
Dear Ms. White:
conversation. Attorney General staff meSbere Wh

°UI'nceat ^phone
OUI*

MI indicated during our teiephone

your
to^ent Jlou and/or intervene on
also requested that we initiate criminal proceed^Proceedings. You have
attorneys, adverse parties, public officials and
gfnst several judges,
relief you request. We have reviewed you ■ asser tnss
grant >'ou
is clear that there is no valid basis foi us to act
Cerent times, but it
to your prior inquiries,
various courts, administrative agencies ouhL
telePh°ne conversations with
isn’t anything presented in
°therS- There
part of this department.
88
^ would justify any action on the

™. of

m th«

rii<ed w> r,sr "trirL.
“ "y "<* *“ “"Plaint,

Sincerely,

t

A

Richard L. Cunningham
Assistant Attorney General
Criminal Trials and Appeals

NO.
IN THE
SUPREME COURT OF THE UNITED STATES

BRENDA FORD WHITE - PETITIONER
VS

O.L. MATTHEWS M.D. et al, - RESPONDENT (S)

PROOF OF SERVICE
I, BRENDA FORD WHITE, do swear or declare that on this date, JUNE 19, 2021, as required by
Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS, and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding or
that party's counsel, and on every other person required to be served, by depositing an
envelope containing the above documents in the United States mail properly addressed to
each of them and with first-class postage prepaid.
The names and addresses of those served are as follows:
LINDA M. GARBARINO (P38359)
TREVOR J. ZAMBORSKY (P77244)
TANOURY, NAUTS, McKINNEY,
GARBARINO & DWAIHY PLLC
Attorneys for Defendant- Appellee
Harper University Hospital
38777 Six Mile Road, Suite 101
Livonia, Michigan 48152
(313) 964-4500

ROBERT G. KAMENEC (P35283)
PUNKETT COONEY
Attorneys for Defendants-Appellees
Dr. O.L. Matthews, M.D.,
Dr. Wook Kim, M.D.,
Dr. Joram Mogaka, M.D.,and
St. John's Hospital And Medical
Center, Inc. 38505 Woodward Ave.
Suite 100 Bloomfield Hills, Mich. 48304
(248) 901-4068

I declare under penalty of perjury that the forgoing is true and correct.
Executed on JUNE 19, 2021
Signature

^
BRENDA FORD WHITE

\a2^^>

RECEIVED
JUN 2 2 2021 i
j

